                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

    se Number: A08100050                                                                                      Page 1 of 1
                                                                                        \   \




                We reviewed an allegation that a PI, I his student,2 and a col,league 3 had plagiarized the look­
         and-feel of a graphical user interface (GUI) in their NSF-funded4 development of open-source
         software. 5 The alleged source was a commercial product6 developed through earlier NSF SBIR
         awards 7 to an unrelated researcher. 8 The university9 completed an' inquiry prior to our involvement
         and closed the matter.

                 At our request, the university conducted an investigation, finding no research misconduct
         because it could identifY no standards in the relevant research community for plagiarism with respect
         to GUls. However, we found relevant standards for the professional associations in whose journals
         the subjects published, as well as the university's own academic conduct policy for students, which
         has a sufficiently broad scope to include the alleged copying ofnon-textual design as plagiarism. 10 It
         appeared that the source material served as a template from which the subjects copied both
         functional and distinctive non-functional elements. However, the development of open-source
         software is characterized by constant change (including the look 'and feel of the GUI) without the
         archiving ofprevious versions. Because ofthe passage oftime, evidence ofthe version(s) alleged to
         have the most similarities to the source is sparse and thus confounds further substantiation of the
         allegation. 11

                   Accordingly, this case is closed.




           The university policy applicable to research faculty contained no definition;for plagiarism .
           If archived versions of the software in different developmental stages existed, those files do not appear to have
         •11
         been secured by the university either during its inquiry or investigation.




NSF OIG Fonn 2 (11102)
